December 28, 2000
Audit Report No. 00-051


Receivership Liability System Staffing &
Training
Federal Deposit Insurance Corporation                                                       Office of Audits
Washington, D.C. 20434                                                          Office of Inspector General

   DATE:            December 28, 2000

   TO:              Donald C. Demitros, Director
                    Division of Information Resources Management

                    A. J. Felton, Deputy Director
                    Dallas Field Operations Branch
                    Division of Resolutions and Receiverships



   FROM:            Sharon M. Smith
                    Assistant Inspector General

   SUBJECT:         Receivership Liability System Staffing and Training
                    (Audit Report No. 00-051)


   This report presents the results of the Office of Inspector General’s (OIG) audit of the staffing
   and training in support of the Federal Deposit Insurance Corporation’s (FDIC) Receivership
   Liability System (RLS). We performed this audit because of impending reductions in the
   number of RLS-knowledgeable claims personnel resulting from planned corporate organizational
   downsizing.


   BACKGROUND

   It is the responsibility of Division of the Resolutions and Receiverships’ (DRR) Dallas Field
   Operations Branch (DFOB) to process claims from depositors and general creditors of failed
   financial institutions. DFOB Claims personnel attend bank closings, determine deposit
   insurance, identify those depositors with balances in excess of deposit limitations and general
   creditors, perform payouts, track claims, and perform customer service functions. In conjunction
   with the Division of Information Resources Management (DIRM), DRR developed RLS, at a
   cost of $8 million, as a tool to assist with the claims function. RLS replaced three systems:
   (1) Claims Tracking System, (2) Automated Grouping System/Automated Payout System, and
   (3) Unclaimed Deposits Reporting System.

   DRR and DIRM (and, to a lesser extent, the Division of Finance) each have a role in claims
   processing and, therefore, use RLS during the closing process. DRR staffs each institution
   closing with claims agents while DIRM personnel provide technical support to the claims agents
   in the use of RLS. DIRM also supports RLS by administering the national database, shipping
   and operating the FDIC’s computer equipment during closings, downloading institution data into
   the system, supporting data processing, and transmitting data. DRR’s DFOB Claims personnel
   enter, edit, approve, and process the data in RLS with DIRM’s assistance. For their part, DOF
   personnel interact with RLS by balancing institution financial records with claims records,
recording automated receiver certificates from RLS, assisting with payouts, and ultimately
paying approved claims.

From July 1999 (when RLS was first used in the closing environment) through August 15, 2000,
RLS has been used in the closing of 10 institutions with a total asset base of over $1.5 billion.
Depending on the size and complexity of the closing institution, the number of Claims staff
attending the 10 closings ranged from 1 employee to 21 employees. However, 23 of the 31
DFOB Claims personnel used during the 10 closings were either term or detailed employees
most of whose appointments are scheduled to expire by the end of 2000.


OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of our audit were to determine whether the FDIC was adequately addressing the
effect of corporate-wide downsizing on RLS operations and whether RLS training was adequate
to prepare employees for RLS-related duties. The scope of the audit covered staffing and
training to support the claims function and RLS operations during the period of July 1999 to
August 2000. Audit emphasis was on bank closing support because this is the initial point at
which deposit insurance determinations are made. Because of the number of term Claims
employees who would be leaving the Corporation at the end of 2000, we evaluated DFOB’s
plans to support the claims function and RLS beyond 2000. As part of our audit work we also
evaluated DRR, DIRM, and DOF RLS-related training.

To accomplish our audit, we reviewed and analyzed (1) current and future organization charts,
(2) division staffing plans, (3) training records of course attendees and course contents, and
(4) bank closing memoranda. We also reviewed the FDIC’s 2000 Annual Performance Plan for
the Insurance Program, which included strategies for maintaining and refining RLS and providing
the optimal staffing and training resources necessary to support future institution resolutions.
Further, we interviewed staff who had attended bank closings; senior DIRM, DRR, and DOF
managers; training course attendees; training coordinators; and RLS Subject Matter Experts.

Our audit included DRR and DIRM operations in Dallas, Texas, and Washington, D.C., and DOF
Field Finance Center operations in Dallas, Texas. We conducted the audit from April 4, 2000 to
August 29, 2000 in accordance with generally accepted government auditing standards.


RESULTS OF AUDIT

Generally, DRR and DIRM—the two divisions with the greatest claims processing and RLS
responsibilities—have adequately planned for reduced Claims and RLS-related staffing levels
that will result from corporate downsizing. To address the challenge of maintaining an
RLS-knowledgeable staff and as part of DRR’s reorganization and core staffing plans, DRR
management is attempting to extend the terms of some term employees beyond the end of
calendar year 2000, reassign permanent staff from other sections of DFOB, and add new
permanent positions in support of the claims function. Similarly, DIRM has considered its
staffing needs as these needs relate to RLS support. Specifically, in October 1999 DIRM



                                                2
developed the DIRM Bank Closing Support Proposal. The proposal, which addresses future
DIRM staffing and training needs for its closing support team, calls for 16 DIRM employees to
be selected and trained for closing assistance.

Regarding RLS-related training, DFOB developed an intensive 3-day RLS training course for its
Claims personnel. Based on our review of the training material and our direct participation in
and observation of the training class, we believe that the class provided good basic training.
Further, our interviews with DRR personnel attending the classes showed that the classes were
well received by course attendees. Although the training provided to DFOB personnel was good,
we identified certain enhancements that we believe could improve the training program. We also
considered DIRM’s RLS-related training—last provided in the fall of 1999—to be good.
However, we believe that DIRM’s training could also be enhanced.


Enhancements Can be Made to DFOB’s RLS Training Program

Although DFOB’s current intensive 3-day training course for its Claims personnel using RLS is
good, RLS training can be enhanced in two areas. These enhancements include adding more
complex processing scenarios in the RLS training program and scheduling periodic refresher
courses.

DFOB’s current 3-day training course provides a good basic overview of RLS and of “best-case
scenario” closing procedures. However, the training only briefly touches upon more advanced
processing situations. RLS is a very complicated software application with hundreds of fields
for data, multiple data certifications, and high dependency on successful completion of prior
steps. For example, the availability of the initial data download, proforma data, and account
holds can affect the sequence of procedures that need to be performed. DFOB’s 3-day class did
not specifically outline procedures to follow in the event a sequencing problem arises. Further,
the training did not include specific closing roles and responsibilities for DIRM and DOF as
these roles and responsibilities relate to setting up passwords, loading data, and reconciling
financial records. That information would be beneficial so that claims personnel would be
knowledgeable of coordination requirements. Our interviews with class participants indicated
that very few of them felt confident with their knowledge of the system. Several students
requested to attend the training again to help ensure they understand their basic responsibilities
when using RLS to close an institution.

Accordingly, we recommend that the Deputy Director, DFOB:

(1)    Enhance DFOB’s current RLS training program to include (a) more comprehensive
       processing scenarios; (b) clarification regarding roles and responsibilities; and (c)
       refresher training provided periodically, or as close as possible (“Just-in-Time”) to the
       actual institution’s closing.




                                                 3
Enhancements Can Be Made to DIRM’s RLS Training Program

DIRM could better prepare its employees for closing duties by providing enhanced training.
Specifically, we believe that DIRM should offer external validation program and Structured
Query Language (SQL) training. Also, DIRM should be scheduling refresher training so that its
personnel are kept up to date regarding their claims-related responsibilities during the closing
process.

As of August 18, 2000, only 6 of the 61 DIRM closing support personnel (all 6 were from
Dallas) had been trained on a new data external validation program that expedites the use of
RLS. No employees in other geographic locations who attend bank closings have been trained to
use the new software. Additionally, although Dallas DIRM staff received training on SQL—the
database management system used to develop RLS—none of the other DIRM bank closing staff
had been offered the training. Seven of the 12 DIRM employees we interviewed who had been
to RLS training expressed concern with data download responsibilities and stated they would
benefit from SQL and/or the external validation program training.

We interviewed 12 of the 37 employees whose last RLS training was in the fall of 1999 and who
had not attended a bank closing since RLS was implemented. While all employees interviewed
stated that the training had been good, retention of the material 9 months later was estimated by
them at between 20 and 70 percent. Half of the employees said they could use the manual to
prepare for a closing, but the other half stated that they needed additional training. Trained
personnel are essential to support the system in case there are any RLS or network problems. As
an example of the need for RLS-proficient DIRM personnel, we observed that during one of the
3-day RLS training courses held in Dallas during July 2000, the RLS server and half of the
laptops had printer, log-on, or other problems that required DIRM’s assistance to resolve.

Accordingly, we recommend that the Assistant Director, Client Services Branch:

(2)    Incorporate SQL and the external validation program into future RLS training to help
       ensure that DIRM can fulfill its support function for the critical area of claims and
       provide periodic refresher training to the 16 employees selected to support future bank
       closings.


CORPORATION COMMENTS AND OIG EVALUATION

On December 19, 2000, the Deputy Director, DFOB, DRR, provided a written response to a draft
of this report. The Deputy Director’s response agreed with and provided the requisites for a
management decision on recommendation 1. On December 8, 2000, the Director, DIRM,
provided a written response to a draft of this report. The Director’s response agreed with and
provided the requisites for a management decision on recommendation 2. We did not summarize
the responses because the actions planned or completed are the same as those recommended.
Appendix II to this report presents both responses.

Appendix III presents management’s proposed actions on our recommendations and shows that
there is a management decision for each recommendation in this report.


                                                4
                                                   CORPORATION COMMENTS                         APPENDIX I

Federal Deposit Insurance Corporation
1910 Pacific Avenue, 2nd Floor, Dallas, TX 75201                              Division of Resolutions and Receiverships


DATE:                                     December 19, 2000

MEMORANDUM TO:                            Sharon M. Smith
                                          Assistant Inspector General

FROM:                                     A. J. Felton, Deputy Director
                                          Dallas Field Operations Branch
                                          Division of Resolutions and Receiverships

SUBJECT:                                  Response to Draft OIG Audit Report entitled Receivership
                                          Liability System Staffing and Training (Amended)

Pursuant to above subject matter, this memorandum will serve to respond to the issues and
recommendation outlined in the draft OIG Audit Report dated November 9, 2000.

IG Audit Recommendation:

(1) Enhance DFOB's current RLS training program to include (a) more comprehensive
    processing scenarios; (b) clarification regarding roles and responsibilities; and (c)
    refresher training provided periodically, or as close as possible ("Just-in-Time") to the
    actual institution's closing.

DFOB Response: DFOB has reviewed the subject draft audit report and agrees with the OIG
finding and recommendation.

        (a) Corrective Action: As recognition of the audit recommendation, DFOB is in the
process of expanding its user orientation for RLS. Guided by the suggestions outlined in this
audit, along with feedback from RLS Claims users, the curriculum for periodic advanced RLS
orientation is being developed for implementation no later than the end of the first quarter 2001.
These orientations are intended to occur semi-annually to coincide with version updates to the
RLS. Included in the orientations are simulations from recent bank closings to help claims staff
members gain hands-on experience with the computer program.

        (b) Corrective Action: A preliminary segregation of the closing responsibilities for
DRR, DOF, and DIRM closing staff has been drafted and is expected to be formalized before the
end of the first quarter 2001. (Added: Those roles and responsibilities will be included in the
RLS orientation curriculum.)

       (c) Corrective Action: As upgrades and enhancements are made and implemented to
advanced RLS semi-annual orientations, demonstrations will be conducted with Claims
personnel by a DFOB RLS Subject Matter Expert (SME). A SME will also be available to
provide a RLS refresher sessions prior to actual scheduled bank closings. The assigned Claims
Agent in Charge will assess pre-closing refresher needs based upon the experience levels of



                                                           5
assigned closing personnel. A memorandum establishing this policy will be issued by the end of
first quarter 2001.

Please feel free to contact Debra Foster at (972) 761-3254 should you have any questions
concerning this matter.

cc:    Mitchell Glassman, Director, DRR
       Jim Forrestal, Assistant Director, DFOB
       Bill Ostermiller, Assistant Director, Operations, DFOB
       Giovanni Recchia, Associate Director, DRR
       Dean Eisenberg, Supervisory Internal Review Specialist, DRR
       Rick Hoffman, Department Head, OIR – Dallas DRR
       Ronald Watkins, Assistant Director, Client Services Branch, DIRM
       Jan deLeo, Assistant Regional Manager, Dallas DIRM
       Rack Campbell, Chief, ITES, DIRM
       Fred Selby, Director, DOF
       James G. Thompson, Deputy Director, FFC, DOF
       Stan Pawlowski, Section Chief, MSB, DOF
       Marilil Reeves, Senior Internal Review Specialist, DOF
       Vijay G. Deshpande, Director, OICM
       Kenneth Jones, Section Chief, OICM




                                               6
Federal Deposit Insurance Corporation
3501 Fairfax Dr., Arlington, VA 22226                              Division of Information Resources Management




                                                         December 8, 2000

TO:                   Sharon M. Smith
                      Assistant Inspector General



FROM:                 Donald C. Demitros, Director

SUBJECT:              DIRM Management Response to the Draft OIG Report Entitled, “Receivership
                      Liability System Staffing and Training” (Audit Number T2000-200)


The Division of Information Resources Management (DIRM) has reviewed the subject draft
audit report and generally agrees with the findings and recommendations. The response to
recommendation number 2 which was directed to the Chief of the Client Services Branch (CSB),
DIRM, is provided below. Recommendation number 1 was directed to the Deputy Director,
Dallas Field Operations Branch (DFOB), Division of Resolutions and Receiverships (DRR).

Management Decision:

Recommendation: Accordingly, we recommend that the Assistant Director, Client Services
Branch:

(2)        Incorporate SQL and the external validation program into future RLS training to help
           ensure that DIRM can fulfill its support function for the critical area of claims and
           provide periodic refresher training to the 16 employees selected to support future bank
           closings.

DIRM Response:

EVP Training: Effective November 30, 2000, all 16 members of the bank closing team have
received training in the use of the External Validation Program (EVP), which is a tool to
automate some aspects of data mapping. Therefore, all 16 members of the DIRM team have
received a two-day course, developed by Dallas staff, in data mapping. The training course is
continually available to them on the Dallas Bank Closing shared drive.

SQL Training: Eight of the 16 DIRM team members have now taken SQL 7.0 and SQL Database
Management Classes. The remainder of the team members have been directed to take the
training before March 1st.

RLS Training: The RLS Applications Development Team has agreed to provide refresher
training the week of January 29th. The Bank Closing Team has requested that the following
subjects, some of which have not been addressed in previous training, be included:


                                                     7
•     Explanation of the RLS databases including table definitions and relationships to assist with
      ad hoc reporting;
•     Relationship between Financial Institution Claim Type Codes and FDIC Claim Type Codes
      and how this information should be populated in the Depositor File;
•     Backups/restores-more specifics on when and how they should be performed;
•     RLS EVP refresher training;
•     Encryption of the export data training;
•     Information on the SQL transaction logs, and,
•     Refresher training on RLS Modules (DDM, Export/Import and Code Table Load).

Refresher training will be provided at 6-month intervals beginning in January 2001. Any training
that occurs after 2001 will be done as necessitated by a significant new upgrade or at least once a
year.

Please address any questions to DIRM's Audit Liaison, Rack Campbell, on (703) 516-1422.


cc:      Vijay Deshpande
         Wayne Gooding
         Michael Wong
         Ronald Watkins
         Jan de Leo




                                                  8
                                                                                                                                APPENDIX II
                                       MANAGEMENT RESPONSES TO RECOMMENDATIONS

The Inspector General Act of 1978, as amended, requires the OIG to report the status of management decisions on its recommendations in its
semiannual reports to the Congress. To consider FDIC’s responses as management decisions in accordance with the act and related guidance,
several conditions are necessary. First, the response must describe for each recommendation

   ! the specific corrective actions already taken, if applicable;
   ! corrective actions to be taken together with the expected completion dates for their implementation; and
   ! documentation that will confirm completion of corrective actions.
If any recommendation identifies specific monetary benefits, FDIC management must state the amount agreed or disagreed with and the reasons
for any disagreement. In the case of questioned costs, the amount FDIC plans to disallow must be included in management’s response.

If management does not agree that a recommendation should be implemented, it must describe why the recommendation is not considered valid.
Second, the OIG must determine that management’s descriptions of (1) the course of action already taken or proposed and (2) the documentation
confirming completion of corrective actions are responsive to its recommendations.

This table presents the management responses that have been made on recommendations in our report and the status of management decisions.
The information for management decisions is based on management’s written response to our report.




                                                                       9
                                                                               Documentation
                                                                                 That Will                          Management
 Rec.                                                          Expected           Confirm            Monetary       Decision: Yes
Number   Corrective Action: Taken or Planned/Status         Completion Date     Final Action         Benefits          or No
         The Deputy Director, DFOB, DRR, agreed with
         the recommendation and stated that curriculum
         for advanced RLS orientation, including
         simulations from recent bank closings, is being
         developed and is scheduled to be completed by
         March 31, 2001. RLS roles and responsibilities                          New training
         for all impacted divisions will be included in                         curriculum and          Not
  1                                                         March 31, 2001                                              Yes
         that curriculum. In addition, Claims Agents in                              policy          Quantifiable
         Charge will assess the pre-closing refresher                           memorandum.
         needs based on the experience levels of
         assigned closing personnel. A memorandum
         establishing this policy will be issued by March
         31, 2000.

                                                                                Training records
         The Director, DIRM, agreed with the                                  for members of the
         recommendation and stated that SQL, external                          bank closing team        Not
  2                                                          March 1, 2001                                              Yes
         validation program, and periodic refresher                               and training       Quantifiable
         training will be provided.                                           schedules for future
                                                                               refresher training.




                                                                  10
